t' '*'<>

No.

zM.
IN THE

\

SUPREME COURT OF THE UNITED STATES
r;..

D’ANN S. MCCOY - PETITIONER
VS.

OCT 0: ■
omc-: of ■

HOIIREIMA OIIEDRAOGO - RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO
THE SUPREME COURT OF PENNSYLVANIA - EASTERN DISTRICT
PETITION FOR WRIT OF CERTIORARI

D’ANN S. MCCOY
853 NORTH MOSS STREET
PHILADELPHIA, PA 19139
267 972 0291

ICEIVEO
OCT 19 2020

imESseiK

QUESTIONS PRESENTED FOR REVIEW
1. Has the Pennsylvania Court System violated the constitutional rights of the Appellant,
D’Ann McCoy, through communication ex-parte in a matter without notification of the
Petitioner - the erroneous credit attributed to critical evidence pertaining to a family
court matter - and a clear breach of jurisdiction through the issuing of sua sponte
opinions and memorandum pertaining to a case that was already in the process of appeal
and outside the jurisdiction of the Court.
(Answer: Yes)
2. Should a Judge be disqualified from participating in a matter if it is found that they are
not compliant with the rule of law?
(Answer: Yes)

(i)

LIST OF PARTIES
1. D’ANN S. MCCOY - PETITIONER
2. BOUREIMA OUEDRAOGO - RESPONDENT

00

TABLE OF CONTENTS

PAGE NUMBER

TABLE OF AUTHORITIES CITED CASES

iv

STATUES AND RULES

iv

OPINIONS BELOW

v

JURISDICTION

vi

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

vu
1,2,3,4

STATEMENT OF THE CASE

5,6

REASONS FOR GRANTING THE WRIT
CONCLUSION

7

INDEX TO APPENDICES

8

INDEX TO APPENDICES
APPENDIX A - Decision And Opinion Of The Supreme Court Of Pennsylvania

9

APPENDIX B - Decision And Opinion Of The Superior Court Of Pennsylvania

10

APPENDIX C- Decision And Opinion Of The Superior Court of Pennsylvania

11

APPENDIX D - Decision And Opinion Of The Court Of Common Pleas of Philadelphia
County

12

APPENDIX E- Memorandum in Lieu Of an Opinion

13

CERTIFICATION OF COMPLIANCE

14

1

15,16

CERTIFICATION OF SERVICE
(in)

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES
United States v. Sciuto 521 F.2d 842 (7th Cir 1996)

iv

STATUTES AND RULES

iv

Rule 302 - Direct Appeals To The Supreme Court (Illinois)
28 U.S. Code 2101(b) - 30 Days Interlocutory Appeal Rule

(iv)

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgments below.
OPINIONS BELOW
1. The decision and opinion of the highest state court to review the merits, The Supreme
Court Of Pennsylvania, appears at Appendix A to the petition and is unpublished.
2. The decision and opinion of the highest state court to review the merits, The Superior
Court Of Pennsylvania, appears at Appendix B to the petition and is unpublished.
3. The decision and opinion of the trial court, The Court Of Common Pleas - Philadelphia
County, appears at Appendix C to the petition and is unpublished.

(v)

JURISDICTION
The date on which the highest state court decided my case was May 8, 2020, A copy of
this decision appears at Appendix A.
A timely appeal was thereafter denied by the Superior Court of Pennsylvania on the
following date: 12/18/2019 and decided 12/30/2019, and a copy of the order denying
review appears at Appendix B and Appendix C.
The date on which the Court of Common Pleas of Philadelphia County decided my case
was November 22, 2019. A copy of the decision and opinion appears at Appendix C.
The jurisdiction of this Court is invoked under 28 U.S.C. §1257(a).

(vi)

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The following Constitutional and Statutory Provisions are involved:
1. U.S. Constitutional Amendment XIV - Section 1. [Citizens of the United States.]
2. Pennsylvania Statutes; PA Constitution Article 1 Declaration of Rights §1 Inherent
Rights and all relevant family law statutes.

(vii)

STATEMENT OF THE CASE
This case has little to do with the specific facts of the case and more to do with
the corruption and injustice committed by the Pennsylvania Court System as a whole as
it systematically deprives citizens of their rights under the due process of law. Corruption
and sly judicial tactics involving the use of legalese and the complex structuring or
excuses and scapegoats makes its nearly impossible for the average Pennsylvania citizen
to recover claims through the Pennsylvania Court system and litigate their claims to their
fullest capacity and potential as they are guaranteed to be able to do so under the 14th
Amendment - Due Process Clause1. Instead, the Pennsylvania Court System as a whole
has devolved into an elitist system that does not allow the average citizen the same rights
and justice as others more fluent in the law or with the wealth and resources to hire
exceptional attorneys, which is substantially in violation of the philosophy and spirit of
the United States which was founded on the principle of liberty and justice for all. These
are among the main reasons for the Petitioner’s appeal, outside of the specific facts
pertaining to their case.
Common Citizen, D’Ann McCoy in the instant family court case is seeking to
recover support expectations from the father of a mutual child. Despite objection, the
lower Court calculated the net income of the father as their gross income and allowed
for the deduction of expenses that were not supported by evidence, resulting in a

1 U.S. Constitution Amendment 14 -... nor shall any State deprive any person of life, liberty, or property
without the due process of law; nor deny to any person within its jurisdiction the equal protection of the
laws.

1

substantial deprival of the Plaintiff of their rights, liberty, and / or property
without the due process of law.
The rights of the Petitioner were violated in the following ways (1) ex-parte
communication taking place between the Court and the Respondent in this matter
pertaining to their abilities to comply with child support requirements without
notification of the Petitioner (2) the incorrect attribution of credit to critical evidence
pertaining to the case such as Gross Income Earned and Net Income Earned in a child
support case despite contradictory evidence provided in an erroneous attempt to
unjustly assist the opposition that the Court is in more prejudicial favor of and (3) the
issuing of sua sponte opinions and memorandum pertaining to matter after it has already
been appealed and outside of the jurisdiction of the Philadelphia Court represented by
Honorable Judge Elizabeth Jackson. Each of these violations in the due process and rule
of law is substantially damaging on the Plaintiff and is merely one example of how the
Pennsylvania Court System continuously prejudices individuals from receiving justice
they are entitled to which is a serious issue that is greatly impacting on the public
interest. It is not sufficient for the Pennsylvania Court System to be as inoperable as it is
and the citizens are demanding better by and through this case as well as many others.
Rule 2101 in the U.S. Code pertaining to the U.S. Supreme Court allows the filing
for interlocutory appeals if they are applicable which is the authority cited for the instant
appeal.

2

While this is not a case arising out of a “Final Order” - the order appealed in this
matter is of significant impact on the litigation that it is ultimately conclusive and the
matter will not be able to be continued or furthered without resolution.
As a result, the Petitioner is requesting relief from this Honorable Court through
the instant petition.
The Supreme Court of Pennsylvania Eastern District denied Petitioner's Petition
for Leave to File to file Petition for Allowance of Appeal Nunc Pro Tunc despite the fact
Petitioner cited Pennsylvania Supreme Court Rules Pa.R.A.P 1114(a),b6 and (b7) and
petitioner attached the Supreme Court of Pennsylvania rules as an Exhibit to the Petition
which further reveals the atrocious erroneous acts of corruption of the entire
Pennsylvania Judicial System which prevents Petitioner from receiving justice in her
entire state. The Superior Court went even further to infringe upon the due process
rights of the Petitioner without reviewing the docketing statement and rule to show
cause or notifying the Petitioner of any action taken. Admitted by the Clerk that Ex-Parte
communications have taken place pertaining to the matter resulting in the action taken
which substantially violates the due process rights of the Plaintiff in the form of
receiving notice of communications and actions taken in matters pertaining to them. The
practices and policies of the Pennsylvania Supreme Court and its inferior Courts have
devolved entirely from adequate due process of law for which the Plaintiff is respectfully
requesting relief.There is no greater burden on a single mother than to have to litigate an
entire case on their own - entirely disadvantaged without an attorney - and then to take
3

this disadvantage even further by the actions of the lower courts. It is a
requirement under the Due Process clause of the U.S. Constitution to correctly and
properly carry out the law which is not taking place with the Pennsylvania Court System.
Furthermore, it is a requirement of the Due Process clause to notify the Plaintiff of any
and all
communications and actions taken pertaining to a legal matter involving them, which is
another defect within the Pennsylvania Court System as a whole. These defects are
substantially contrary to the public interest and rule of law which qualifies this case for
consideration by the Supreme Court of the United States which is what the Petitioner is
asking for in the instant petition.

4

REASONS FOR GRANTING THE WRIT
There are various reasons why the Supreme Court may grant a writ which
includes (1) when the case has to do with the population as a whole.
In this case, the Writ for Certiorari is not just about the decisions that pertain to
this case and the manner in which they were processed by the court in a way that
constitutes numerous violations of the due process of law.
Furthermore, the manner in which the Pennsylvania Court System carries out
these violations of due process is continuous and systematic - the Pennsylvania Court
System has been using legal incorrectness hidden under a vast amount of excessive
wording and defective reasoning inconsistent with actual written law - knowing that the
average citizen is not likely to have the means to withstand and go through with the
appeal process. There is no greater violation that can be complained of on appeal that an
entire State Court system in the United States, the Commonwealth of Pennsylvania Court
system, continuously and systematically depriving the citizens of their rights to equal and
open access to the courts - by unequally and incorrectly applying written law to cases in
a way that disadvantages the average person and makes it so that they are unable to use
the legal system effectively.
The matters complained of in this appeal show just how far from the rule of law
that the Pennsylvania Court System has diverged from the standard rule of law, making
this as straightforward of a certiorari case as possible. The likelihood for success on the
merits for the Petitioner is high pertaining to their specific matters and even higher
5

pertaining to their Due Process claims. The substantial public importance of the citizenry
being able to access the Court System without bias or undue complexity is a matter of
substantial public importance and there is no reason that the Pennsylvania Court System
should be so rigid in the year 2020 when information is more freely available than ever
before
The Pennsylvania Court System as a whole has diverged substantially from the rule of
law in a manner that is unacceptable and so it is respectfully requested that this
Honorable Court GRANT this Petition for Writ of Certiorari to remedy these injustices.

6

CONCLUSION
This Court should Grant Certiorari
Respectfully Submitted
Date:

10
D’ANN S. MCCOY
853 NORTH MOSS STREET
PHILADELPHIA, PA 19139
(267) 972 0291

7

^

INDEX TO APPENDICES
APPENDIX A - Decision And Opinion Of The Supreme Court Of Pennsylvania
APPENDIX B - Decision And Opinion Of The Superior Court Of Pennsylvania
APPENDIX C-Decision And Opinion Of The Superior Court of Pennsylvania
APPENDIX D - Decision And Opinion Of The Court Of Common Pleas of Philadelphia
County
APPENDIX E- Memorandum in Lieu of an Opinion

8

I./

APPENDIX A - Decision And Opinion Of The Supreme Court Of Pennsylvania

9

John W. Person Jr., Esq.
. Deputy Prothonotary
Patricia A. Johnson
Chief Clerk

Supreme Court of $£tmgptb&ma
Eastern District

468 City Hall
Philadelphia, PA 19107
(215) 560-6370
\vww. pacourts. us

May 8, 2020
D'Ann 'S. McCoy
853 North Moss Street
Philadelphia, PA 19139
RE:

McCoy, D., Pet. v. Ouedraogo, 8.
No. 20 EM 2020
Lower Appellate Court Docket No: 3340 EDA 2019
Trial Court Docket No: No. 12-12310

Dear D'Ann S. McCoy:
Enclosed please find a certified copy of an order dated May 8, 2020 entered in the
above-captioned matter. ■

Very truly yours,
Office of the Prothonotary
fih
Enclosure
cc: "The HonorablefElizabeth Jackson, Judge
TSavidSMiChaeLKaplan/^Esq.

